<html>
<title> - AN UPDATE ON NASA COMMERCIAL CREW SYSTEMS DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                      AN UPDATE ON NASA COMMERCIAL
                        CREW SYSTEMS DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

                           Serial No. 115-44

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-414 PDF                     WASHINGTON : 2018 




























              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                            January 17, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Minority Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    17

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Directorate, NASA
    Oral Statement...............................................    18
    Written Statement............................................    21

Mr. John Mulholland, Vice President and Program Manager for 
  Commercial Programs, Boeing Space Exploration
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Hans Koenigsmann, Vice President of Build and Flight 
  Reliability, SpaceX
    Oral Statement...............................................    40
    Written Statement............................................    42

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office
    Oral Statement...............................................    53
    Written Statement............................................    55

Dr. Patricia Sanders, Chair, NASA Aerospace Safety Advisory Panel
    Oral Statement...............................................    78
    Written Statement............................................    80

Discussion.......................................................    86


             Appendix I: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Directorate, NASA...................   112

Mr. John Mulholland, Vice President and Program Manager for 
  Commercial Programs, Boeing Space Exploration..................   116

Dr. Hans Koenigsmann, Vice President of Build and Flight 
  Reliability, SpaceX............................................   120

Dr. Patricia Sanders, Chair, NASA Aerospace Safety Advisory Panel   126

            Appendix II: Additional Material for the Record

Report submitted by Dr. Patricia Sanders, Chair, NASA Aerospace 
  Safety Advisory Panel..........................................   138

 
                      AN UPDATE ON NASA COMMERCIAL  
                        CREW SYSTEMS DEVELOPMENT

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Babin. Good morning. The Subcommittee on Space 
will come to order. Without objection, the Chair is authorized 
to declare recesses of the Subcommittee at any time. Welcome to 
today's hearing titled, ``An Update on NASA Commercial Crew 
Systems Development. I would like to recognize myself for five 
minutes for an opening statement.''
    The next few years will be busy for space exploration. NASA 
will be busy not only launching new systems, but they will be 
developing new business models, new contracting mechanisms and 
new ways of approaching every facet of the challenge of 
expanding human presence beyond low-Earth orbit.
    Engaging with commercial partners to meet exploration needs 
is part of that broader effort. I'm very eager to see how we 
can partner with the private sector to advance NASA's goals. 
NASA's Commercial Crew Program is part of that effort. And as 
we assess the merits of this new approach, we must also 
recognize the hazards of such partnerships. Without diligent 
oversight by NASA and Congress, these programs could simply end 
up being corporate welfare and bad deals for the taxpayer.
    This Commercial Crew Program builds on the commercial cargo 
program and offers new insights about how government and 
industry can work together on key tasks. Perhaps even more 
importantly, this program is a key part of the bigger, broader 
effort to industrialize low-Earth orbit and transition the 
International Space Station to a new operating model in the 
next decade.
    But instead of looking forward and tackling the economic 
self-sufficiency and operation of the ISS, we are here today 
looking at not one but two companies that are behind schedule, 
may not meet safety and reliability requirements, and could 
even slip into cost overruns. Rather than being able to praise 
the success of a new approach to business, we are now 
confronted with the news that the certification won't happen 
until at least 2019.
    This situation gets even worse when we look at the safety 
and reliability concerns surrounding these two new systems. 
Both programs suffer from shared and individual issues 
concerning reliability and safety. The risk that these 
companies cannot meet their deadlines or safety requirements 
increases the risk that the ISS cannot be successfully or 
gracefully transitioned in the middle of next decade. 
Increasing risks to ISS transition in turn, increase risk to 
human exploration programs in general. Further, they decrease 
the collective appetite for the kind of innovative partnerships 
that will be vital to a host of future NASA exploration and 
science missions.
    Both this hearing and last November's hearing on SLS and 
Orion get to matters of risk. What is the risk that NASA will 
be unable to meet its long-term goals of expanding permanent 
human presence beyond low-Earth orbit? Each program features 
cost, schedule, and performance risks. Those programmatic risks 
translate into risks to the overall exploration architecture.
    Both companies are making progress but certainly not at the 
rate that was expected and not without significant challenges 
to safety and reliability. In order to remedy these problems, 
NASA may seek additional funding or accept significant risks. 
Neither of those options is viable. As I said at our recent 
hearing on SLS and Orion, NASA and the contractors have to 
execute.
    I would like to thank our witnesses for their testimony and 
look forward to getting a better understanding of where we are 
and what our prospects look like going forward.
    [The prepared statement of Chairman Babin follows:]
    
    
    
    
    
    Chairman Babin. And now I would like to recognize the 
Ranking Member, the gentleman from California, for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for having 
this timely hearing and thank you to the witnesses.
    You know, I represent a district in California, so I have 
these five to six hour flights across the country. And a couple 
weeks ago-- I'll download a movie occasionally to watch on that 
flight. And I downloaded Apollo 13 to watch on the flight. 
Obviously, I think everyone in this room has seen that movie, 
but it's a great movie if you haven't seen it. But what it does 
suggest is the importance of safety in commercial crew 
launches. And you know, that was almost 50 years ago and just 
watching the importance of safety watching how those of us at 
NASA at the time back home improvising, trying to figure things 
out, using slide rules that might have been an over-
dramatization, but they were using slide rules. And fast-
forward to where we are today and think about the computing 
capabilities that we have and everything else. But it still 
doesn't mitigate the danger when you're sending human beings 
hundreds of thousands of miles away from the earth, 
particularly as we start to think about going further and 
further and the importance of safety. And regardless of 
everything that we do to mitigate things, the unexpected 
potentially can always happen. And you know, as we think about 
renewing our commercial crew capabilities here domestically, 
partnering with the commercial sector, safety is paramount and 
obviously the balance of meeting deadlines and goals and 
balancing that with safety.
    I think the other important part as we start to get back 
into commercial crew capabilities here domestically in the 
United States, I do think we're taking the right approach 
partnering with the commercial sector with NASA. It's certainly 
in the lead looking at certification and everything else, but 
also having redundancy, having two companies that potentially 
give us that capability because again, you never know when 
something unexpected potentially happens.
    I think for national pride, also allowing the United States 
domestically not to have to rely on another nation certainly is 
something that we think about.
    And then we don't know what the 21st century in space is 
going to look like. Certainly you see more commercial 
interests, thinking about building habitats up there. You see 
folks talk about space tourism, et cetera. So again, as the 
commercial sector partners with our agencies, I think this is 
incredibly important.
    With regards to today's hearing, I'm very interested in 
looking at and getting information on safety first; within that 
context, the safety driving the timeline as opposed to timeline 
driving safety; and then, really just curious about what those 
next steps are. If we are unable to hit some of the goals, my 
understanding is in the fall of this year, the hope is to do 
some unmanned tests, toward the end of 2018 to try to do some 
manned tests, and then to start the certification process in 
2019. So I'd be curious again to hear from our witnesses and 
get some sense of how we're going to balance these competing 
interests but again leading with safety and then hitting our 
timeline goal.
    So Mr. Chairman, thank you for another great hearing, and I 
look forward to hearing from our witnesses.
    [The prepared statement of Mr. Bera follows:]  
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Babin. Absolutely. Thank you, Mr. Bera. I really 
feel old this morning because I used to use a slide rule when I 
was in college. And I saw that movie again for about the third 
time a couple of weeks ago.
    Okay. I'd like to now recognize the Chairman of our Full 
Committee, Mr. Smith from Texas.
    Chairman Smith. Thank you, Mr. Chairman. The goal of the 
Commercial Crew Program was to develop a faster, more cost-
effective way to procure space transportation services without 
sacrificing safety or reliability. The intent was to leverage 
the lessons learned and the investments made in the commercial 
cargo program.
    At the outset, there was hope that contractor funding would 
decrease the development costs to NASA and the taxpayer and 
that this would justify the contractors keeping the 
intellectual property derived from federal funding. There was 
also an assumption that the contractors would find other 
customers, improving economies of scale, which would then lead 
to lower launch prices for NASA. Finally, there was a 
presumption that contractors could deliver systems faster if 
there was less government oversight.
    Today's hearing is a great opportunity to evaluate whether 
the program is living up to those goals. Have the contractors 
funded development costs? If so, how much? If not, why not? And 
should the government retain the intellectual property? 
Previous hearings held by this committee indicated that NASA is 
funding 90 percent or more of the costs. Has this changed?
    Are the contractors finding other customers to offset NASA 
operational costs? The commercial cargo program created two 
separate Delta-2 class launch vehicles that have certainly 
found customers outside NASA. However, the costs to NASA under 
the second commercial resupply services contract went up, not 
down.
    Should we expect costs to grow rather than shrink under the 
Commercial Crew Program as well? Has the Commercial Crew 
Program maintained its planned schedule? Are there appropriate 
incentives built into the contracts to maintain the schedule 
and penalize delays?
    This hearing offers us the opportunity to reflect on the 
status of the program and seek answers to these questions. A 
lot has happened in the last few years. The program is making 
significant progress. However, as we will hear from the 
witnesses, there have been challenges. The Government 
Accountability Office reported last February that the neither 
Boeing nor SpaceX would be able to certify their systems in 
2017.
    That GAO report and the recently released Annual Report of 
the Aerospace Safety Advisory Panel both warned that 
certification is likely to slide even further to 2019. This was 
confirmed just last week when we were formally notified that 
SpaceX's first launch would be delayed again.
    Further reports from the GAO, ASAP, and IG and others point 
out that neither company may be able to meet safety 
requirements. The recently released annual report from the 
Aerospace Safety Advisory Panel states it appears that neither 
provider will be able to achieve a no worse than one in 500 
chance of losing a crew and will be challenged to meet the 
overall mission requirement of one in 200, based on capsule 
design alone.
    Meanwhile, as schedules slip, we continue to pay Russia $80 
million per seat to take our astronauts to the ISS. This not 
only creates additional budget pressure on the agency, it 
hinders full utilization of the ISS, and ultimately complicates 
future exploration plans. With the end of the ISS on the 
horizon, the clock is ticking on maximizing the return on the 
taxpayer's investment. The longer we wait for the Commercial 
Crew Program, the less we can accomplish on ISS.
    Other programs at NASA, including SLS and Orion and the 
James Webb Space Telescope also face significant delays, cost 
overruns and challenges.
    The taxpayers and Congress have neither infinite budgets 
nor infinite patience. Foreseeable delays, predictable overruns 
and performance lapses all have real consequences. Contractors 
should not assume that the taxpayers and Congress will continue 
to tolerate this.
    NASA and its contractors must restore American confidence 
in their ability to deliver safe, cost-effective leadership in 
space. This Committee has strongly supported the Commercial 
Crew Program and consistently advocated for full funding. That 
support continues, but the contractors need to deliver safe, 
reliable systems on budget and on schedule.
    Thank you, Mr. Chairman. I yield back
    [The prepared statement of Chairman Smith follows:]  
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Babin. Yes, sir. Thank you. Thank you very much. 
And I'd like to now recognize the Ranking Member of the Full 
Committee, the gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning and welcome to our witnesses.
    Since the last Space Shuttle flight in 2011, the U.S. has 
lacked a domestic human spaceflight capability and has relied 
on Russian crew transportation services to transport NASA crew 
to and from the International Space Station. That arrangement 
has proved to be very durable in spite of geopolitical tensions 
back here on Earth. However, it is no substitute for U.S. crew 
transfer capabilities.
    This morning's hearing will provide us, hopefully, with 
update on the status of NASA's and the industry's efforts to 
reestablish a domestic capability for launching our astronauts 
to the space station.
    NASA's two Commercial Crew Program providers, Boeing and 
SpaceX, are working toward the goal of conducting test flights, 
first without crew onboard and later, of course, with crew. If 
these flight tests are successful, the current schedule would 
have NASA certify the two systems for operational missions 
sometime in 2019.
    As we have discussed on numerous occasions in this 
Subcommittee, getting to this stage of the Commercial Crew 
Program has really not been easy. Our witnesses from the 
Aerospace Safety Advisory Panel and the Government 
Accountability Office will no doubt attest to that point. And 
the coming end of the availability of the Soyuz seats adds the 
risk of unhealthy schedule pressure to the other challenges 
facing the program.
    Yet, despite the prospect of our access to seats on the 
Soyuz coming to an end next year, NASA and the two companies 
cannot afford to cut corners in attempting to prevent a 
potential gap in U.S. access to the International Space 
Station. Because, Mr. Chairman, if this is not to be 
sustainable, the end result of the Commercial Crew program must 
be safe and a safe commercial crew transportation system for 
all astronauts.
    Next week NASA will commemorate the astronauts who died in 
the Columbia, Challenger, and Apollo I accidents as well as 
other NASA pilots and employees who lost their lives in the 
pursuit of space exploration. We cannot forget their 
sacrifices, even as we blaze new trails in space.
    As the NASA Transition Authorization Act of 2017, 
``consistent with the findings and recommendations of the 
Columbia Accident Investigation Board, the Administration shall 
ensure that safety and the minimization of the probability of 
loss of crew are critical priorities of the Commercial Crew 
Program.''
    I hope that we will have a robust discussion at today's 
hearing on how NASA and its providers will ensure that planned 
commercial crew transportation systems are safe enough for our 
astronauts to fly in, what the challenges are to achieve that 
level of safety, and what safeguards the ASAP and GAO would 
recommend.
    Thank you, Mr. Chairman, for holding the hearing. I look 
forward to hearing our witnesses, and I yield back.
    [The prepared statement of Ms. Johnson follows:]  
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Babin. Yes, ma'am. Thank you very much. Now I'd 
like to introduce our witnesses that we are going to hear from 
today. The first witness today is Mr. Bill Gerstenmaier, 
Associate Administrator of Human Exploration and Operations 
Directorate at NASA. Mr. Gerstenmaier began his NASA career in 
1977 performing aeronautical research and has managed NASA's 
human spaceflight portfolio since 2011. He received a Bachelor 
of Science in aeronautical engineering from Perdue University, 
and a Master of Science degree in mechanical engineering from 
the University of Toledo. Welcome.
    Our second witness today is Mr. John Mulholland, vice 
president and program manager for Commercial Programs at 
Boeing. Prior to this, Mr. Mulholland served as the Vice 
President and Program Manager for the Boeing Space Shuttle 
Program. He was also the program director and chief engineer 
for the Boeing Space Shuttle Orbiter Team. Mr. Mulholland 
received both a Bachelor of Science in chemical engineering and 
a master's degree in mechanical engineering from New Mexico 
State University. Welcome.
    Our third witness today is Dr. Hans Koenigsmann, the Vice 
President of Build and Flight Reliability at SpaceX. He has 
more than 25 years of experience designing, developing, and 
building complex avionics and guidance, navigation, and control 
systems for launch vehicles of satellites. Dr. Koenigsmann 
received a master's of science in aerospace engineering from 
the Technical University of Berlin and a Ph.D. in aerospace 
engineering and production from the University of Bremen. 
Welcome.
    Our fourth witness today is Ms. Cristina Chaplain, Director 
of Acquisition of Sourcing Management at the U.S. Government 
Accountability Office. Among other topics, Ms. Chaplain has led 
reviews on the ISS, Space Launch System, and Orion crew capsule 
as well as commercial cargo and crew projects at NASA. Mrs. 
Chaplain received a bachelor's degree in international 
relations from Boston University and a master's degree in 
journalism from Columbia University. Welcome to you.
    Our final witness today is Dr. Patricia Sanders, Chair of 
the NASA Aerospace Safety Advisory Panel, ASAP, and she 
previously served as Executive Director of the Missile Defense 
Agency, as well as Director of Tests, Systems Engineering, and 
Evaluation at the Office of the Secretary of Defense. She 
received her Ph.D. in mathematics from Wayne State University 
in Detroit, Michigan. And welcome to you, Dr. Sanders.
    I would like to now recognize Mr. Gerstenmaier for five 
minutes to present his testimony. Mr. Gerstenmaier?

             TESTIMONY OF MR. WILLIAM GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

       HUMAN EXPLORATION AND OPERATIONS DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you. Chairman Babin, Ranking Member 
Bera, and Members of the Committee, thank you for the 
opportunity to be here today to represent the NASA teams 
supporting the Commercial Crew Development Program.
    Over the past several years, there's been tremendous amount 
of work completed. The hard work completed, the analysis, the 
design work completed, as well as the testing is direct 
evidence of the tremendous amount of work that's been 
accomplished. I'm sure the other panelists will cover in detail 
the quality and quantity of the work completed. My written 
testimony additionally includes references to the work that's 
been completed.
    The work completed took longer than originally planned, but 
many technical issues were discovered and resolved. This extra 
time that was taken in this development phase will help reduce 
the risk and magnitude of additional schedule delays.
    This is a critical time in the program as manufacturing is 
in high gear, testing is being completed, and verification and 
validation requirements are being addressed by NASA. The 
program is approximately one year away from the first crew 
flights to ISS. This is an excellent time to reflect on the 
work completed and the work to go. This hearing is very timely.
    The NASA team is fully aware of the amount of work to go 
and the requirements that need to be completed, reviewed, and 
closed by NASA and its partners. NASA has been fully engaged 
with the partners during their design and testing and 
manufacturing processes. NASA has directly witnessed tests. 
NASA has done our own assessments in selected areas, and we 
have requested extra tests from our partners and even done our 
own tests. This involvement and interaction helps as NASA 
reviews documents for closure.
    NASA is aware of the schedule but not driven by the 
schedule. NASA worked last year to add additional Soyuz flights 
to protect if additional time was required for certification. 
Soyuz capability is available through the fall of 2019. The 
manufacturing time of a Soyuz of approximately three years will 
not allow additional Soyuz to be manufactured. We are 
brainstorming ideas to provide additional schedule time, if 
needed.
    Additionally, as we do this, we are looking for ways to 
allow the partners to reach an operational tempo after 
certification.
    The ISS program is looking at ways to maximize ISS 
operations while allowing for some delays and launch dates. 
Having selected two partners helps to relieve the schedule 
concerns if a major problem arises. NASA is doing everything 
possible to be prepared and allow time for a solid review of 
the design and the data.
    NASA's aware that the schedule can be a negative influence 
to a good design and safe flight if it is the only 
consideration. As one way to protect against undue schedule 
pressure, NASA has implemented independent technical 
authorities. This allows for rigorous discussion on technical 
topics. This discussion could be seen as a negative but should 
rather be seen as a positive and a way to technically compare 
and contrast design options.
    NASA is prepared to make timely decisions. Many of these 
decisions will be risk-versus-risk decisions. And NASA is 
prepared to make these based on the technical data available at 
the time of the decision.
    Even after certification is complete, we must continually 
compare the actual performance of the systems to the design 
performance. We also must look at the environments in which the 
vehicle is flying to again make sure that the vehicles have the 
proper safety margins. We need to be prepared and allow the 
design to change, even after the official formal certification.
    This is a critical time in the Commercial Crew Program. The 
decisions being made today will affect the safe and successful 
operation of the systems for years to come. NASA is fully ready 
for this phase and has the insight and ability to certify a 
safe and reliable system in a timely manner.
    I look forward to your questions and a good, informative 
hearing. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]  
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    Chairman Babin. Thank you, Mr. Gerstenmaier. Now I'd like 
to recognize Mr. Mulholland for five minutes to present his 
testimony.

               TESTIMONY OF MR. JOHN MULHOLLAND,

               VICE PRESIDENT AND PROGRAM MANAGER

                    FOR COMMERCIAL PROGRAMS,

                    BOEING SPACE EXPLORATION

    Mr. Mulholland. Chairman Smith, Chairman Babin, Ranking 
Member Johnson, Ranking Member Bera, and Members of the 
Committee, on behalf of The Boeing Company, thank you for the 
opportunity to provide an update on the Commercial Crew 
Program.
    We are proud to have been a trusted partner with NASA on 
every domestic human spaceflight program. We have a unique and 
singular understanding of the strategic importance of having an 
American-made crew transportation system for safe, reliable, 
and affordable access to low-Earth orbit. I will emphasize safe 
again as for that is our ultimate judgment on our mission. That 
said, we understand that having this capability as soon as 
possible is critically important for the International Space 
Station to continue its important mission as a world-class 
national lab.
    We have the full support of The Boeing Company, and a 
strong, value-added relationship with our NASA partner. We've 
made tremendous progress and have overcome several issues that 
are typical of complex development programs since we last 
testified in 2015.
    Our launch vehicle, the Atlas V, has flown 74 missions with 
100 percent mission success providing unparalleled safety, 
mission assurance, and schedule reliability. The launch site 
crew access tower has been erected, and other site 
modifications are progressing well ahead of need.
    The structural test article entered test in December 2016 
and is undergoing a complex series of static loads, modal 
analysis, ordinance operation, and separation system 
verification. The test series is greater than 50 percent 
complete.
    The service module hot fire test article has been delivered 
to the test site and is near completion of cold-flow testing. 
Following this phase, the system will be loaded with 
propellant, and all propulsion system functions will be tested.
    Spacecraft 1 has finished initial power-on testing, ground 
verification testing, and is undergoing final outfitting prior 
to mate of the crew module and the service module. This test 
article will be sent to the test site for the pad abort test in 
Q2 2018.
    Spacecraft 2 initial power-on testing will occur in early 
February, followed by final outfitting and mate prior to being 
shipped to the test site for environmental qualification 
testing early this summer before returning to Florida for 
retrofitting to support the crew flight test in Q4 2018.
    Spacecraft 3 lower dome secondary structure is in build to 
support initial power-on testing in April. This spacecraft will 
be used for the uncrewed test flight in Q3 2018.
    The land landing qualification testing has successfully 
completed, proving our system can safely land on land under 
both nominal and failure cases.
    Flight software released its latest drop in December and 
currently stands at over 98 percent of full functionality.
    Over 25 percent of the verifications to be approved by NASA 
have been completed and delivered, and over 11,000 hazard 
control verifications have been closed out and delivered.
    Training is under way with NASA's commercial crew cadre and 
our mission operations team thanks to new, state-of-the-art 
Starliner training systems at the Johnson Space Center.
    As you can see, the team has successfully transitioned from 
design into integrated build and test. The last time I was 
here, there were some concerns over whether or not NASA and its 
partners were providing the Aerospace Advisory Panel with 
enough insight into our systems and processes. I promised this 
Committee, and then-chair Admiral Dyer, that Boeing would 
continue to provide the ASAP the appropriate level of access 
into the development of the Starliner. In fact, we offer all of 
NASA's advisory committees and reporting agencies, including 
the Government Accountability Office, full insight into our 
progress, challenges, and schedule. We believe transparency is 
essential in this business, and I personally feel that the 
reviews, findings, and feedback add value to our systems and 
processes.
    We are well aligned with our customer on crew safety and 
mission assurance, and our analyses show that we exceed our 
requirements for crew safety. While we're focused on meeting 
our 2018 forecast dates, we're equally committed to performing 
those safely. We bring the same quality to commercial 
spaceflight that we bring to our servicemen and women, 
astronauts on board the station, and to the traveling public 
every day.
    Thank you again for the opportunity to be here today, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Mulholland follows:]  
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairman Babin. Thank you, Mr. Mulholland. I'd like to now 
recognize Dr. Koenigsmann for five minutes to present his 
testimony.

               TESTIMONY OF DR. HANS KOENIGSMANN,

                    VICE PRESIDENT OF BUILD

                 AND FLIGHT RELIABILITY, SPACEX

    Dr. Koenigsmann. Thank you. Mr. Chairman, Ranking Member 
Bera, Ranking Member Johnson, and Members of Committee, thank 
you for the opportunity to participate in today's important 
hearing.
    SpaceX is proud to partner with NASA to develop the next 
generation of safe, reliable, and affordable space 
transportation for America's astronauts. On behalf of my more 
than 6,000 colleagues at SpaceX, I am pleased to be here to 
provide an update on our progress towards the first flight with 
crew later this year.
    Mr. Chairman, SpaceX is designing, building, testing, and 
will soon operate the safest crew transportation system in 
history. We are working in close partnership with NASA, and we 
are deeply grateful for the ongoing guidance and confidence.
    The Commercial Crew Program stands as a true example of the 
innovative safety improvements and cost savings that can be 
achieved under an effective public/private partnership.
    In addition to designing and building the hardware, we will 
conduct all mission operations from crew training, launch and 
on-orbit activities to post-flight recovery. NASA sets high-
level requirements and certifies us to fly. The SpaceX 
transportation system leverages our proven Falcon 9 launch 
vehicle and our Crew Dragon spacecraft.
    Falcon 9 has successfully launched 46 times since 2010 
including 18 flights in 2017, a new record. The vehicle has 
been designed from day one with robust margins, engine-out 
capability, and advanced safety systems to support astronaut 
flights. Falcon 9 is also the only operational orbital launch 
system with reusability capabilities which improves reliability 
and lowers cost.
    The Crew Dragon spacecraft builds upon our successful 
flight heritage with our current cargo-configured Dragon 
spacecraft. We developed Dragon under the COTS Space Act 
Agreement with NASA. Since 2010, Dragon has successfully flown 
to orbit and back 14 times between sending cargo to the space 
station and back to Earth, a capability unique to Dragon. Crew 
Dragon takes this proven design and incorporates upgrades to 
ensure a safe and comfortable ride for astronauts.
    The biggest safety innovation on Crew Dragon is our launch 
escape system. Fully integrated into the spacecraft, the system 
will safely propel Crew Dragon and the astronauts inside away 
from the launch vehicle in the event of an emergency. Unlike 
past generation systems that could only be used for the first 
few minutes of flight, our SuperDraco system gives the escape 
capability all the way to orbit. This is a major advancement 
for astronaut safety.
    I'd like to give you an overview of some of the major 
achievements we've made in the program to date. In May of 2015 
we conducted a successful pad abort test. Here, we simulated an 
emergency on the launch pad. Within a fraction of a second, the 
spacecraft escape system propelled it away from the pad, 
validating true escape capability in the event of a pad 
emergency.
    In November of 2016, we completed functional testing of our 
life support system. We also completed a key space suit 
qualification milestone which including the lead engineer 
wearing the space suit he designed in a vacuum chamber to prove 
its capability.
    In September 2017, we successfully made Dragon's pressure 
and service section of our first flight vehicle. This was a 
major milestone and a big step towards flight later this year. 
And in December, we completed the first round of qualification 
testing for our parachute system.
    We have completed nearly all technical development required 
for Crew Dragon. At this point, we have multiple Crew Dragon 
spacecraft in testing or built right now.
    Over the course of this year, we will complete final 
integration and validation ahead of our first astronaut 
flights. In August we plan to conduct an uncrewed test flight 
of the full system to and from the space station to validate 
that the system is safe for crew. Then we will launch our test 
flight with two NASA astronauts for a week mission to and from 
the space station in December. Following that, we will begin 
operational flights with a four-astronaut NASA crew complement.
    Safely and reliably flying commercial crew missions remains 
the highest priority for SpaceX, and we will launch NASA 
astronauts only when both we and NASA are ready.
    Mr. Chairman, I appreciate the opportunity to testify 
before you today, and I look forward to answering your 
questions.
    [The prepared statement of Dr. Koenigsmann follows:]  
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Babin. Thank you very much, Dr. Koenigsmann. I'd 
like to now recognize Ms. Chaplain for five minutes to present 
her testimony.

         TESTIMONY OF MS. CRISTINA CHAPLAIN, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Babin, Ranking Member Bera, Chairman 
Smith, Ranking Member Johnson, thank you for inviting me today 
to discuss NASA's Commercial Crew Program. GAO has been 
assessing the progress of commercial crew for several years. In 
the past we've also reviewed the commercial cargo program known 
as COTS as well as NASA's human spaceflight programs.
    As you know, NASA's acquisition strategy on the Commercial 
Crew Program is similar to the one it used on COTS but 
different than every other spacecraft it has built for humans. 
For commercial crew, each contractor develops, owns, and 
operates its spaceflight systems. The contractors have access 
to NASA expertise and resources throughout development process, 
but NASA engineers are not making design decisions and NASA 
personnel are less involved in processing, testing, launching, 
and operating the crew transportation system. In the end, NASA 
will buy a crew transportation service much like it does for 
the station's cargo.
    While Boeing and SpaceX are making significant progress, 
both continue to experience schedule delays. It has been three 
weeks since the program's original December 2017 goal to secure 
domestic access to the space station, yet neither contractor 
has yet to conduct a test flight. In fact, final certification 
dates have slipped to the first quarter of calendar year 2019. 
And we found that the program's own analysis indicates that 
certification is likely to slip into December 2019 for SpaceX 
and February 2020 for Boeing.
    Several factors could contribute to additional delays to 
the schedules presented here today. One, the contractor 
schedules have been aggressive from the onset of the program. 
To date, Boeing has reported a delay six times, and SpaceX has 
reported a delay nine times for at least one key event. 
According to NASA, both contractors assume an efficiency factor 
in getting to the crewed flight test that the program office 
does not assume in its schedule.
    The contractors also use their schedule dates to motivate 
their teams while NASA adds additional schedule margin for 
testing.
    Aggressive schedules and delays are not atypical for 
programs developing new launch vehicles and/or crew vehicles, 
and we see them on all types of contracts. But in this case, 
the delays and uncertain final certification dates raise 
questions about whether the U.S. will have uninterrupted access 
to the space station beyond 2019. NASA may have to purchase 
additional Soyuz seats, but as Mr. Gerstenmaier mentioned, 
there are limits to how it can do so. Further, these delays may 
lessen NASA's return on investment with its contractors.
    There are also programmatic and safety risks that may 
result in more delays. Again, not unusual for programs of this 
nature, even at this stage of development. Boeing, for example, 
is addressing the risk that the Starliner's heat shield could 
damage the parachute system during reentry into the earth's 
atmosphere.
    SpaceX needs to address concerns about its plans to fuel 
the launch vehicle after astronauts are on board.
    In addition, both contractor systems must meet a standard 
for crew safety that is much higher than that for the shuttle. 
A considerable amount of work remains to be done to determine 
whether the contractors will meet this requirement.
    Lastly, NASA's program office could also face delays and 
workload problems that can cause delays. Program officials told 
GAO that one of their greatest upcoming challenges would be to 
complete two oversight activities concurrently. These include 
conducting phased safety reviews and verifying that contractors 
meet requirements.
    The program's ability to smooth its workload is limited as 
the contractors control their own schedules. Last year, though, 
we found that the proposed schedule changes could alleviate 
some overlap in terms of the program office's workload.
    We will be further assessing the Commercial Crew's Program 
schedule and risk as well as issues surrounding safety and look 
forward to reporting on the results of our work later this 
year.
    Chairman Babin and Ranking Member Bera, this concludes my 
statement, and I'm happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]   
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Chairman Babin. Thank you, Ms. Chaplain. We appreciate it. 
I'd like to now recognize Dr. Sanders for five minutes to 
present her testimony.

               TESTIMONY OF DR. PATRICIA SANDERS,

          CHAIR, NASA AEROSPACE SAFETY ADVISORY PANEL

    Dr. Sanders. Chairman Babin, Ranking Member Bera, Mr. 
Smith, and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the status of 
NASA's Commercial Crew Program.
    The Aerospace Safety Advisory Panel believes that NASA's 
Commercial Crew Program is at a critical juncture, well beyond 
paper design with hardware being produced, testing underway, 
and first flights, uncrewed demo flights followed by crewed 
demo flights, on the horizon. This is a time when it is 
important to retain focus on program details while not giving 
in to schedule pressure; to maintain schedule awareness but to 
continue with program plans without neglecting, shortchanging, 
or deleting planned content. We continue to strongly caution 
that any wavering in commitment negatively impacts cost, 
schedule, performance, workforce morale, process discipline, 
and most importantly, safety.
    We see continual steady progress toward providing the 
capability for crew transportation to low-Earth orbit and the 
International Space Station with both providers currently 
planning for flight tests later this year.
    We also know that based on the quantity, significance, and 
associated uncertainty of work remaining for both commercial 
providers, the panel believes that there is a very real 
possibility of future schedule slips. There are several major 
qualification and flight test events that historically are 
schedule drivers or could reveal the need for additional work. 
These are things such as pyro shock qualification tests, 
parachute tests, engine hot fires, and qualification runs, 
abort tests, and both the crewed and uncrewed demos.
    In addition to the technically complex test and 
qualification work remaining for the providers, NASA also has, 
as Cristina pointed out, a significant volume of work remaining 
itself. The final phase of the NASA Safety Review process, 
where verification evidence of hazard controls is submitted by 
the provider and dispositioned by NASA, remains ahead as well 
as the majority of certification requirements verifications. 
It's not unusual for that to come at this point in time in the 
program, but that is remaining to be done.
    Despite the volume of remaining work, the technical 
challenges and the upcoming end of the Soyuz transportation for 
U.S. crews, the panel sees no evidence that the program 
leadership is making decisions that prioritize schedule over 
safety risk, over crew safety. We expect to see several 
significant certification issues brought to culmination in the 
next year that will require NASA careful consideration and risk 
acceptance decisions at a very high level within the agency. It 
is possible that in some cases, the most beneficial and 
balanced options for the mission will require a decision to 
accept a higher risk. We note that the strategy of funding two 
providers was adopted, in part, to avoid a situation where NASA 
would be forced to accept undesired risk to maintain crews on 
the International Space Station. This requires one provider be 
certified and ready to fly crew to the station by mid- to late 
2019. Certification of the second provider could happen after 
that time.
    The panel believes that NASA is addressing safety properly, 
but space can be a decidedly hostile environment, and human 
spaceflight is inherently risky. There's no excuse for 
negligence in the safety arena, but it is impossible to 
eliminate or control every potential hazard.
    With the Commercial Crew Program, NASA has introduced an 
approach to developing spaceflight assets in cooperation with 
commercial providers. The future brings potential for more 
partnerships, bringing more opportunities and challenges with 
respect to safety processes and mechanisms.
    In the coming year, the panel plans to spend focused effort 
on commercial crew and also look to the future of responsible 
and exciting human space exploration.
    And I look forward to your questions.
    [The prepared statement of Dr. Sanders follows:]  
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Babin. Thank you very much for your testimony, Dr. 
Sanders.
    I'd like to introduce a young lady that's from my district 
because she's from Texas A&M as an intern from Dayton, Texas, 
in District 36, Ashton Stevenson. Raise your hand or stand up, 
Ashton. Thank you. Good to have you here this morning.
    I want to thank the witnesses for their testimony, and now 
I'd like to recognize myself for five minutes for questions.
    Recent press reports indicated that a U.S. Government 
mission named Zuma may have either failed in orbit or the 
launch could have been unsuccessful. I do not want to discuss 
anything classified in an open session. The circumstances 
surrounding this mission do have a direct impact on NASA and 
this Committee's jurisdiction and oversight responsibilities. 
For instance, the launch vehicle used for the mission was 
developed with substantial NASA funding. The rocket is also 
scheduled to launch the Transiting Exoplanet Survey Satellite 
(TESS) mission in March. More importantly, the rocket will be 
used in the Commercial Crew Program that we are discussing 
today. Knowing the operational history of the system that NASA 
will put people on is an issue of life and death, literally. 
Similarly, the Zuma spacecraft was reportedly built by Northrop 
Grumman who is building a $9 million James Webb Space Telescope 
for NASA.
    Understanding Northrop Grumman's work is clearly important 
to NASA and the Committee. So I'd like to address the first 
question to you, Dr. Koenigsmann. Thank you for committing to 
provide an unclassified briefing on the Zuma mission. If the 
Committee needs more information, will SpaceX provide this 
Committee with a briefing on this mission in a classified 
setting?
    Dr. Koenigsmann. Thank you for your question. I want to 
point out on the Zuma mission that we relayed the information 
that Falcon 9 performed as specified, and it actually performed 
very well as specified and that we are picking up the launches 
by the end of the month as we planned all the time.
    Regarding the briefing, we will go through the proper 
channels and follow the protocol. As you pointed out, we can't 
talk any details in this particular setting.
    Chairman Babin. Okay. Thank you. And to Mr. Gerstenmaier, 
does anyone at NASA know the details of the Zuma mission?
    Mr. Gerstenmaier. We do not know the details of the mission 
per se, but we've been informed by others that if there's any 
mishap investigation or any other activities that are involved, 
we will be appropriately involved in that activity.
    Chairman Babin. Okay. Well, why would NASA place astronauts 
on systems without knowing the systems' full operational 
heritage? And it brings to mind President Reagan's use of the 
Russian proverb, trust but verify.
    Mr. Gerstenmaier. Again, we will know if this is declared a 
mishap and we understand that if it's a mishap, NASA will be 
informed and we will have appropriate personnel participate in 
those mishap activities.
    Chairman Babin. Okay. Thank you. Following the explosion of 
the SpaceX rocket and the Amos 6 spacecraft on the launch pad, 
SpaceX was not able to determine a single most-probable cause 
of the event, instead identifying several credible causes 
related to the composite overwrap pressure vessel, or COPV, 
helium tank. SpaceX modified its operations to prevent similar 
events going forward but still doesn't know the exact cause. 
The ASAP report states the panel considers this to be the most 
critical step in clearing the COPV for human spaceflight as it 
allows NASA and SpaceX to identify the credible failure 
mechanisms, hazard scenarios, and controls as well as 
understand the safety margins on the system. The report goes on 
to state, in our opinion, adequate understanding of the COPV 
behavior and cryogenic oxygen is an absolute essential 
precursor to potential certification for human spaceflight.
    Dr. Sanders, how many launches with a stable configuration 
should NASA require SpaceX and Boeing to achieve before 
certification?
    Dr. Sanders. That's a very difficult question. Thank you. 
Right now I believe NASA is planning to require seven launches 
with that configuration, and we believe that's an appropriate 
number.
    There's some statistical evidence that Mr. Gerstenmaier 
could probably talk to a little bit better than I can on why 
that is a reasonable number. It is not a totally random number. 
It is a number that's predicated on having more than a few but 
having a timeframe in which you can actually accomplish those 
and still get on with certification and make the right risk 
decision on flying.
    Chairman Babin. Okay. Thank you very much. And Mr. 
Gerstenmaier, will NASA certify SpaceX to carry NASA astronauts 
without knowing the root cause of the Amos 9 failure? And will 
NASA allow SpaceX to use the load-and-go procedure for either 
commercial crew or the uncrewed missions?
    Mr. Gerstenmaier. We may not ever know the exact root cause 
of the failure that was associated with Amos, but we have a 
very intensive test program in cooperation with SpaceX and NASA 
doing some testing to identify the contributing causes or 
potential causes of that failure.
    SpaceX is doing a redesign of the composite overwrap 
pressure vessel system, and Hans can talk to you about the 
details of that. We're participating in that. We will do the 
testing. We will understand the most likely contributors, and 
we will remove those from the failure chain and make sure that 
we're really ready and safe to go fly and the system is ready 
for crew before we put them on board.
    In terms of the so-called load and go, we're in the process 
of looking at the best time to put the crew on the vehicle. 
We'll take into account the hazards associated with the 
specific vehicle designs, how much propellant is being actively 
loaded, what systems are operating, what hazards are associated 
with those activities, and we will find the appropriate time, 
along with the contractors, to put crew on this particular 
vehicle design that is most appropriate for the lowest risk to 
our crews and overall lowest risk to the--or gives us the 
highest probability of mission success. And we're in the 
process of working with both providers to determine the 
appropriate time to put crew on the vehicles.
    Chairman Babin. Excellent. Thank you very much. My time is 
expired, so I'd like to go to the gentleman from California, 
Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Mr. Gerstenmaier, in 
your opening testimony you talked about how NASA is aware of 
the schedule but not driven by the schedule. I think those were 
the terms that you used. And Ms. Chaplain, I believe I heard 
you correctly that while NASA's engineers are involved working 
with both Boeing and SpaceX, it's mostly internal at Boeing and 
SpaceX, that NASA's engineers aren't intimately involved in the 
design and manufacturing. Did I hear that correctly?
    Ms. Chaplain. Yes, not as involved as they would be in a 
typical program such as like an Orion spacecraft.
    Mr. Bera. Okay. And again, this is evolution of--you know, 
if I think about the early days of Apollo where NASA was the 
launch vehicle, NASA was the commercial crew vehicle, was the 
lunar landing vehicle, was the science vehicle, I mean, it's 
not a bad thing to see evolution and progress. Fifty years ago 
we would not have imagined U.S. astronauts going up to a space 
station on a Russian vehicle, but yet, that's where we find 
ourselves today.
    I guess for Mr. Gerstenmaier, what is the--how intimately 
are NASA engineers involved as we start to go back into space?
    Mr. Gerstenmaier. We again look back at kind of our history 
and experience in spacecraft design, development, and safe 
operations. And there's certain areas that we deemed as higher 
risk across the systems. We also look at the specific designs 
where problems have occurred and that we've seen in other 
testing, and then we involve ourselves very heavily in those 
areas.
    So for example, we talked about the composite overwrap 
pressure vessel activity, we have our own test facility at 
White Sands at which we're working with SpaceX to go do a kind 
of independent test to verify and validate that that's there. 
So we take these selected areas. We don't do it across the 
board with every design element, but the ones that we think 
have the highest risk or have the highest potential to be a 
safety impact, we're heavily involved in those areas and we're 
working hand in hand with both contractors.
    Another area is parachutes. We're very heavily involved in 
the parachute design activities, certification activity. We're 
using our experience we've had with the Orion spacecraft. We're 
providing that to both Boeing and SpaceX. They can use that in 
their designs, and we have our engineers participating with 
them in those activities.
    So we selectively pick the areas that we think are highest 
risk and we delve into the area that we need. If we see 
something we don't like, we can ask the contractor to do extra 
work for us or we can do testing ourselves.
    Mr. Bera. Okay. And that level of cooperation, you know, 
coming from NASA, I guess to both of the contractors, Mr. 
Mulholland and Dr. Koenigsmann, you're also reaching out to 
NASA knowing that they have critical expertise and obviously a 
lot of knowledge from years of sending people, you know, crews?
    Mr. Mulholland. Yeah, absolutely. I think NASA has added a 
lot of value to the process. From the very beginning, we 
thought it would be advantageous for us to embed NASA within 
our team. So we've got NASA personnel in our factory every day 
with us. We have weekly review meetings across all the 
technical teams. They're in our engineering review board. They 
provided a lot of value, and we are dedicated to doing this 
transparently.
    Mr. Bera. And the same with SpaceX?
    Dr. Koenigsmann. And yes. It's a very similar situation for 
us, too. We have NASA personnel on site. At every workday we 
include them in important meetings and some of the risk boards 
and on some other boards. We have a very close relationship 
with NASA, and we actually share hardware and test plans 
regarding some of the tests we'd be performing here.
    Mr. Bera. Okay.
    Dr. Koenigsmann. So it's a--in my opinion, it's more hand 
in hand----
    Mr. Bera. It's a partnership.
    Dr. Koenigsmann. --cooperation and it's not we do the work 
and, you know--it's just a much closer relationship than I 
envisioned.
    Mr. Bera. And in our conversation yesterday, right now the 
contract between NASA and the contractors are for single-use 
vehicles. So, you know, for the Dragon vehicle, it would be a 
new one each time you take a crew up. And is it the same for 
Starliner as well, that these would be single use in the 
current contract?
    Mr. Mulholland. From a Starliner perspective, we have a 
two-piece spacecraft. We have an expendable service module that 
provides the propulsion for orbit, on-orbit adjustments, the 
de-orbit burn, and also abort if we had to. There's a new one 
every flight. The benefit that our system has is we land on 
land, a combination of parachutes and airbags. That allows 
reusability. So we will reuse the crew module up to 10 flights.
    Mr. Bera. Mr. Gerstenmaier, currently though, is NASA 
contracting for the reuse of that crew vehicle or is it a new 
crew vehicle each time?
    Mr. Gerstenmaier. As Mr. Mulholland just explained, in the 
case of Boeing, the vehicle is reused----
    Mr. Bera. Is reused.
    Mr. Gerstenmaier. --up to 10 times. In the case of SpaceX, 
we've asked for a new vehicle each time----
    Mr. Bera. Each time.
    Mr. Gerstenmaier. --and we'll continue to review that with 
SpaceX.
    Mr. Bera. Okay. And in the long-term planning, with the 
reuse of vehicles, is the expectation that will bring costs 
down over time?
    Mr. Gerstenmaier. Yes. We believe that it has the potential 
to bring down costs. We're also looking even at the Orion 
spacecraft for potential reuse of it in certain areas.
    There's some advantage of using a reused vehicle in the 
fact that you've got a chance to actually see it in flight. You 
get to see its performance. As long as you're not taking life 
out of the system or it's not degrading the system, the fact 
that it's flown gives you some insight into the environment 
that it's going to operate and gives you some insight into 
operations that may actually be beneficial to you.
    Mr. Bera. Is there an expectation potentially, if Dragon is 
being designed to be reused as well to think about Dragon as a 
reuse vehicle as well?
    Mr. Gerstenmaier. Maybe Hans might address that better than 
myself.
    Dr. Koenigsmann. Yeah, Dragon is designed for usability, 
and we actually have been able to demonstrate that on the 
current cargo Dragon, particularly with the last launch we used 
a first stage and a cargo Dragon. So that was a major 
accomplishment in my opinion in terms of reusability.
    And I do want to emphasize, too, that getting the vehicles 
back is an enormous opportunity to learn about the flight loads 
and what happened to it in-flight, not just by inspecting it 
but you can also add additional sensors that you then can 
download data from and don't have to rely just on the RF 
things.
    So in our opinion, it's both a long-term cost savings and 
an incredible reliability advantage.
    Mr. Bera. I've gone over my time, Mr. Chairman.
    Chairman Babin. Thank you very much. I'd like to now 
recognize the gentleman from Alabama, the Vice Chairman of our 
Subcommittee, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. I'm going to read from 
an article that was published earlier this week titled, 
``Doubts About SpaceX's Reliability Persists as Astronaut 
Missions Approach.'' It was in Forbes Magazine. The author is 
Loren Thompson, January 15, 2018, and then I'm going to ask 
some questions, in fairness, that we can have a response.
    ``In 2015, a Falcon 9 cargo mission to the International 
Space Station exploded minutes after launch, costing NASA $110 
million. In 2016, an Israeli commercial satellite was destroyed 
on the ground when supposedly routine fueling procedures went 
dramatically awry. The launch pad was damaged by that 
explosion. In 2017 the latest version of the company's Merlin 
rocket engine blew up at a testing facility in Texas. And now 
SpaceX has begun 2018 with yet another catastrophe,'' referring 
to the billion dollar spy satellite that we recently lost. 
Resuming the quote, ``Maybe SpaceX really isn't responsible for 
the latest failure; the problem might have been caused by a 
payload adapter that Northrop Grumman, the company that also 
built the lost satellite, supplied. But launch providers 
usually have final responsibility for tip-to-tail readiness 
before a rocket lifts off, and competitor ULA has successfully 
employed a variety of payload adapters to attach satellites to 
its rockets. The most worrisome aspect of this apparent pattern 
is that the same SpaceX launch vehicle will begin flight tests 
later this year to carry astronauts to the International Space 
Station.'' And I would add from another part of the article, 
``By way of comparison, United Launch Alliance, SpaceX's sole 
competitor in the military launch business, hasn't lost a 
single payload in 12 years and 124 missions.''
    Dr. Koenigsmann, you made a comment in your remarks in 
chief that SpaceX is achieving or attempting to achieve its 
goal of ``safe, reliable, and affordable'' launches. This 
record that is mentioned in the Forbes Magazine article, do you 
consider that to be consistent with a ``safe and reliable and 
affordable'' launch record?
    Dr. Koenigsmann. Well, the record in this paper needs to be 
adjusted for accuracy, I think.
    Mr. Brooks. Please do. That's why I'm giving you the 
opportunity.
    Dr. Koenigsmann. Thank you. Thank you very much for that. 
For one, the quoted test incident in Texas was not actually an 
engine explosion. There was a fire on the test stand when the 
engine wasn't even running and there was a test procedural 
error. It has nothing to do with the engine itself.
    Regarding Zuma, we talked about this earlier. I can't 
unfortunately present any details. I can only reiterate that 
Falcon 9 did everything that Falcon 9 was supposed to do.
    So on that record, the other two incidents are a while 
back, and we did learn our lessons on both of those, which is 
obviously not desirable. But at the end of the day, it's a 
thing we learned and we improved the vehicle based on what we 
saw during those incidents into a much safer vehicle. We took--
in both cases we had investigations with government partners, 
NASA, FAA, the Air Force and so on and so forth. And we very 
openly discussed and presented our corrective action and acted 
on them, since then, which in my opinion, makes us a much 
better vehicle.
    I do want to point out at the same time that Falcon 9 has 
actually characteristics that make it intrinsically safe. For 
example, it has nine engines on the first stage. You can lose 
an engine and make mission. You can actually lose two engines 
in some cases, not that we ever--not that I ever hope that that 
will happen, but obviously that is a tremendous guarantee. If 
you lose engines in other rockets and--you know, I want to 
point out, our engines are also domestically produced. 
Obviously this is much more difficult for other vehicles that 
have less engines. So that makes it safer.
    I also pointed out reusability was already--is a great 
point to get the vehicles back and inspect them. That is 
something that we started doing I think it was December, not 
this last year but the year before. And ever since then have we 
had a chance to inspect the vehicles or to make sure that the 
actual----
    Mr. Brooks. Please, I have a follow-up question for Ms. 
Chaplain, and I gave you as much time as I could.
    Dr. Koenigsmann. I'm sorry.
    Mr. Brooks. And I appreciate your correcting the article as 
you understood it with Loren Thompson where you agree with two, 
you contest one, and then the other still yet to be determined.
    But Ms. Chaplain, how does the GAO evaluate SpaceX's record 
or goal of safe and reliable and affordable?
    Ms. Chaplain. Well, on the issue of safety and the 
accidents mentioned today, I would just remind people that DOD 
went through its own phase of having launch accidents right 
before their current program started, the evolved expendable 
launch vehicle. And once that started, they realized pretty 
quickly on that they had to add mission assurance. So they've 
had a lot of time in the past to learn from mistakes, to do the 
things that they need to do to get safety and mission assurance 
into the program.
    In my view, I think some of that learning is still going on 
here for the providers because they're new vehicles, they're 
new to the government arena, and procedures, mission assurance, 
things like that are things they're going to be learning over 
time and they've already learned quite a bit.
    Mr. Brooks. Thank you for your insight and rebuttal of the 
article. I appreciate it.
    Chairman Babin. And I'd like to recognize the Ranking 
Member, Ms. Johnson, from Texas.
    Ms. Johnson. Thank you very much. Excuse my voice. For I 
guess Gerst, the ASAP report discusses the accident 
investigation regarding the on-pad explosion of Falcon 9 rocket 
in 2016. And the report says that NASA conducted an independent 
review in addition to the standard accident review. Has that 
been distributed yet?
    Mr. Gerstenmaier. No, it's not, and it's in review now. We 
have a summary of that report in review with SpaceX, and as 
soon as we complete the discussions with them, we'll have that 
summary available for folks to take a look at.
    Ms. Johnson. Okay. We look forward to reviewing that. For 
Dr. Sanders, it's my understanding that one of the commercial 
crew launch vehicles, the Falcon 9, has experienced several 
primary mission failures over the past four years and suffered 
a major engine anomaly in recent months, any of which 
occurrence would have forced a stand-down if it had happened to 
the space shuttle. In addition to other commercial crew launch 
vehicle, the Atlas V is powered by the Russian-built RD-180 
engine for which detailed design data is still unavailable.
    What will NASA need to do to ensure that either of the 
launch systems will be safe enough to fly astronauts on?
    Dr. Sanders. Thank you. NASA has a very rigorous 
certification program in place for both commercial crew 
providers. There are a very large number of verification 
notifications that have to be filed. There's evidence that has 
to be provided from the tests that say this is--they have met 
all these requirements.
    I think that by the time they weed through all of that, 
NASA will be able to make a reasonable decision relative to 
residual risk. The problems that have experienced with Falcon 9 
as Dr. Koenigsmann has just said have been addressed in the 
past but there is still work to be done, particularly on the 
composite overwrap pressure vehicle.
    The RD-180 data or lack thereof for the launch vehicle for 
the Boeing variant I think has been resolved by finding an 
alternative way to get insight into that design.
    Ms. Johnson. Thank you very much. Ms. Chaplain, would you 
like to comment on that?
    Ms. Chaplain. I think there's going to be some gaps as they 
come to the end, and they're going to have to make a risk-based 
decision on whether to go forward with some gaps in knowledge. 
I don't think you're going to get complete knowledge of the 
Atlas V. That program began as a commercial program, and there 
wasn't some data obtained that we've never been able to get. So 
at some point, NASA's just going to have to decide how much--is 
the insight they have enough? Is the track record enough? Is 
the data they've gotten alternatively enough? And they'll have 
to make their own risk-based choice.
    Ms. Johnson. Thank you very much.
    Chairman Babin. Thank you. And now, the gentleman from 
Oklahoma, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. And clearly the 
committee is extremely sensitive about both safety and cost. 
I'd like to begin my discussion of course with the most 
important question, safety.
    Mr. Gerstenmaier, since this is the first time NASA will be 
certifying a commercial, a crew system for human spaceflight, 
could you expand for a moment about the differences between 
what you're doing and will be doing in the way of commercial 
system, a certification, versus the certification process you 
would be going through for a NASA-developed system?
    Mr. Gerstenmaier. I think the simplest way to describe it 
is we have a shared mission assurance or safety responsibility 
with the partners where the partners have responsibility to 
show that the vehicle is safe on their own, to show that it can 
be used for the intended activities that ferry crew to and from 
space. But then NASA also ultimately has the certification 
responsibility when we put our crews on those vehicles. So then 
we do a detailed assessment along with what they've done. So 
there's some things we've delegated to them to do to be fully 
certified to say they're ready to go and there's aspects where 
we double-check, and we oversee all aspects of what they're 
doing. So even the areas that they say are certified, we've 
taken a look at them. We've determined they're appropriate to 
put our crew on board, whereas it's our own internal program, 
we would do all that work ourselves.
    Mr. Lucas. And to that end, let's talk for a moment about 
the cost issues. And I turn to our friends from Boeing and 
SpaceX. One of the primary reasons for the private sector 
partnering and developing new systems, of course, was the 
concept that providing astronaut access to the International 
Space Station, the development costs to be shared by the 
contractors. I think we've had testimony before this committee 
indicating perhaps somewhere in the 80, 90 percent range of the 
development funds so far have been provided by NASA. I guess 
the question I'd simply put to you, how much skin in the game 
do each of you actually have, your organizations? And whoever 
would prefer to touch that first.
    Mr. Mulholland. Congressman, thank you. I don't have 
specific data available for me today on the amount of 
investment. The investment from the Boeing Company has been 
significant, and we consider this a strong partnership and an 
endeavor that we're fully committed to.
    Dr. Koenigsmann. I want to say we have all of the skin in 
the future for us is Crew Dragon and Falcon 9. But with respect 
to this particular number, I have to state this for the record 
I don't remember this particular number. I do remember the 
number for the previous Crew Dragon contract which was 
significantly higher percentage wise.
    Mr. Lucas. And clearly the reason I ask this question is 
the same reason the constituents inquire about this. Simply 
put, whoever is successful, you accomplish something that will 
have benefits to your enterprise for a generation or two. So 
it's a legitimate point back from our folks.
    Expand for a moment also if you would about your dealings 
individually company-wise with NASA so far as you go through 
the certification process, if you've had any surprises.
    Dr. Koenigsmann. Yeah. So I want to point out we have an 
excellent relationship with NASA. I mean, obviously you have to 
I guess get a working relationship on the working level and 
that takes a little bit of time until we established a process. 
But by now we know how to, you know, work, go through the 
certification process. And it's not that this is something that 
happens, you know, once we're all done. This is ongoing at this 
point in time and works in parallel with the hardware 
development.
    I'm pretty confident that we will finish this on time and 
get the astronauts up there before we have to fly any Russian 
vehicles. And obviously the test flights are as planned later 
this year.
    Mr. Mulholland. Obviously, a very strong relationship with 
NASA. We've been a part of every human spaceflight program from 
the beginning. I think the proof of the relationship is in the 
product, and as of today, of the 800 verifications as we look 
forward to certification of the vehicle, of the 800-plus 
verifications that we have to complete and send over to NASA, 
over 200 have already been delivered. And of those, over 150 
have already been approved.
    The other big part of certification is the verification of 
hazard controls. We have 16,000 hazard control verifications 
that we have to present to NASA. Of those, over 11,000 have 
already been dispositioned and given to NASAS for review.
    So to me, the proof is in the product and the partnership 
that we have and the disposition of those successfully speaks 
volumes.
    Mr. Lucas. Thank you. I yield back, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you, Mr. Lucas. The 
gentleman from Illinois, Mr. Foster.
    Mr. Foster. Thank you, Mr. Chairman. One of the large cost 
drivers in any of this sort of project is the high level 
specification on the probability of loss of crew and an equally 
important number, the probability of loss of mission. You know, 
it's my understanding that it's 1 in 270 is viewed as an 
acceptable probability of loss of crew and you sort of design 
around that? Is that a correct understanding?
    Mr. Gerstenmaier. Yes.
    Mr. Foster. Yeah. So one in--all right. And so what is the 
number then for an acceptable probability of loss of mission 
which is presumably allowed to be significantly higher and 
perhaps more of an economic tradeoff? Is there a design number 
for that as well?
    Mr. Gerstenmaier. The requirement for loss of mission is 1 
in 55.
    Mr. Foster. Okay. All right. So that's--now which of the 
Falcon 9 accidents that have been talked about would have 
resulted, had they been manned, would have resulted in a loss 
of crew as opposed to loss of mission?
    Dr. Koenigsmann. Thank you very much for that question. 
Certainty the first incident that we had a mishap, the crew 
would have been safe with the launch escape system. There's no 
question about that because Dragon----
    Mr. Foster. This is the----
    Dr. Koenigsmann. This is this year.
    Mr. Foster. --on-pad----
    Dr. Koenigsmann. No, this is the one in flight.
    Mr. Foster. --fuel. The one in flight?
    Dr. Koenigsmann. Yeah. As we can see, Dragon's heat shield 
acts as a barrier there, and we can see Dragon separate in this 
particular case. In fact, we made changes on the Dragon 
software because if you would have deployed the parachute, you 
might have been able to save the capsule at that particular 
point. So that's--the launch escape system would have helped 
there, absolutely. The same is true for the pad abort system 
which we tested last year, two years ago actually.
    Mr. Foster. Pad abort? This is the----
    Dr. Koenigsmann. Right.
    Mr. Foster. --pad explosion incident.
    Dr. Koenigsmann. No, this is addressing an incident on the 
pad. In this case, it's----
    Mr. Foster. How long did you have? I think I read somewhere 
93 milliseconds from the first anomaly in the telemetry?
    Dr. Koenigsmann. It's very short and----
    Mr. Foster. And would that have been sufficient for the 
crew escape?
    Dr. Koenigsmann. It competes with starting up the engine. 
So it's certainly a race condition there. But I personally 
believe that the heat shield and the structure on Dragon would 
have protected the astronauts sufficiently to let the engine 
start and go. But that's certainly something that you never, 
ever want to test.
    Mr. Foster. Okay. But it is----
    Dr. Koenigsmann. Yes.
    Mr. Foster. --your estimate----
    Dr. Koenigsmann. Yes.
    Mr. Foster. --that that probably would have not?
    Dr. Koenigsmann. No, I think my estimate is----
    Mr. Foster. Resulted in loss----
    Dr. Koenigsmann. --that this would have--yeah, exactly 
that. It would have saved the astronauts. That's my estimate. 
It's a little bit of guessing on my side obviously because that 
is something we don't want to, you know----
    Mr. Foster. Okay. And this latest thing that cannot be 
fully talked about, the fact that there was at least--it had 
basically achieved orbit or very close to it?
    Dr. Koenigsmann. Falcon 9 did what Falcon 9 was supposed to 
do and----
    Mr. Foster. All right. And so presumably, you know, if a 
flaw had been detected in performance, there would have been 
contingency plans to rescue the crew?
    Dr. Koenigsmann. There are----
    Mr. Foster. And then so that----
    Dr. Koenigsmann. There are always----
    Mr. Foster. Is there any----
    Dr. Koenigsmann. --plans to keep the crew safe and we 
have--well, as a point of knowledge, we have a late abort 
capability. We can actually abort when we are close to orbital 
velocity. And in this case, the abort would be not to land but 
to orbit. That's a really interesting feature I think on Crew 
Dragon that can always be useful.
    Mr. Foster. And I guess the last question, the probability 
of loss of mission is a number that is at least in part an 
economic tradeoff. And so I was wondering, is that something 
that gets negotiated upward when a project gets in trouble, 
that as long as you maintain the probability of the loss of 
crew----
    Dr. Koenigsmann. Oh, no.
    Mr. Foster. --that whether it's viewed as an acceptable 
practice to----
    Dr. Koenigsmann. No.
    Mr. Foster. --make an adjustment of that?
    Dr. Koenigsmann. I don't think so. I mean, that would be--
safety is our primary goal.
    Mr. Foster. I'm talking about material. This is----
    Dr. Koenigsmann. Absolutely.
    Mr. Foster. --loss of mission. This is loss of the payload 
rather than loss of life. And is it viewed--you know, I would 
not be shocked or even necessarily unhappy to find that there 
was some more flexibility in the probability of loss of mission 
as a project, you know, gets into schedule trouble, for 
example.
    Dr. Koenigsmann. Let me just say the--I'm not sure loss of 
mission actually is a problem right now. But in terms of the 
probability of loss of crew, one of the key drivers is actually 
the time on station when the capsule sits there more or less 
empty. There are ways to address this. And we have done--based 
on the probability risk assessment, we have done design changes 
to protect the hardware. And that's actually what this number 
is supposed to be for in my opinion. It's a number that can 
identify critical areas that you then change the design and add 
armor basically to protect it. That's the main usefulness of 
this type of analysis.
    Mr. Foster. All right. Thank you and I guess I'm out of 
time and yield back.
    Chairman Babin. Thank you very much. Let's see. The 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And let 
me just note that this is a very unique way of approaching 
achieving a goal that we're looking at today. And usually in 
the past we've seen either one contractor or the government 
itself trying to be the contractor to accomplish a mission. And 
what we have are two terrific companies, Boeing and SpaceX, 
which are providing us a new way of perhaps accomplishing our 
space goals. This is the first time that I know that we've 
actually had this type of competition.
    Let me note that the Orion capsule is reused. Boeing has 
designed this to be reused. Is that correct?
    Mr. Mulholland. The Starliner capsule. Yes, sir.
    Mr. Rohrabacher. Okay. And on the other hand, SpaceX is 
trying to reuse their launch vehicle. So we have two different 
approaches, and I think this is what Congress wanted, some 
really--we have two different approaches, we're going to find 
out which one is the correct way. Maybe they're both good, but 
this is the type of innovation and an innovative approach. I do 
take it that we have saved money? Is that correct, Mr. 
Gerstenmaier?
    Mr. Gerstenmaier. Yes.
    Mr. Rohrabacher. So even with two companies and this new 
approach, we've saved money. However, let me note that the 
companies are operating under--have some real burden. And that 
is not their burden but I understand that the budget that 
they've been operating on, that Congress has failed to fully 
fund this project that they have said they needed so much 
money. Is that correct, Mr. Gerstenmaier?
    Mr. Gerstenmaier. Initially, we had some startup problems 
with funding. But since those problems have been behind us, 
we've received the funding that we've requested each year for 
the Commercial Crew Program.
    Mr. Rohrabacher. Right. Yeah, I noted that when it was 
first started we got 64 percent of the funding and that was in 
2011. 2012, 47 percent of the funding was requested was 
actually allocated. And then later on we had some, at least 
Congress being more responsible in trying to meet our 
responsibilities. So this program has saved money. We've got 
different approaches that are now being proven. And so it looks 
like the program is going along as we thought it would, even 
though there have been glitches. But there are glitches in the 
development of any new technology. Let me note that.
    Ms. Chaplain, do you have confidence that this was the 
right approach for NASA to take?
    Ms. Chaplain. I think in taking this approach, NASA 
definitely learned some lessons from the past. There were early 
attempts to work with the commercial sector in a different way 
and to really have them drive the program and be partners with 
NASA. But they didn't succeed for things like not very good 
communication between the contractor and the government, maybe 
not as much insight as the government needed, not good risk 
mitigation planning. And in this case, NASA I believe took all 
those measures for commercial crew and the COTS program and 
even learned from the COTS program for commercial crew to avoid 
those past mistakes. So for a program like this that's trying 
to do business differently, they've instituted----
    Mr. Rohrabacher. So do you still have confidence that we 
should have taken this approach?
    Ms. Chaplain. It's a good approach for this endeavor. We 
don't like to endorse one or the other.
    Mr. Rohrabacher. Okay.
    Ms. Chaplain. But for this program of this nature, they're 
following a good approach and adopting good practices for 
managing it.
    Mr. Rohrabacher. All right. And how about Ms. Chaplain? I 
mean, Dr. Sanders, would you still have faith in this approach 
that Congress started years ago? And by the way, when you don't 
fund a program by what is guestimated for the need of the 
program, doesn't that also increase the risks that people take?
    Dr. Sanders. Yes, it does, and that can be a problem. I 
believe that this was an interesting, new way to do this. It 
was--it had came with challenges, and if I stick with safety, 
they learned some new things about managing risk and shared 
risk management that are probably good for the future. They had 
to learn some new things because it wasn't the way it was done 
in the past. I think by and large, it bodes well for the 
future.
    Mr. Rohrabacher. So do you still have faith----
    Dr. Sanders. I have----
    Mr. Rohrabacher. --in this approach? Well, thank you very 
much, and Mr. Chairman, let's just note that with this type 
of--as we move forward now developing this program, we still 
face major challenges for things like space debris and how, 
even if they do their job perfectly, they may be in jeopardy 
with the space debris. The challenges are the entire approach 
to space. So thank you very much, Mr. Chairman.
    Chairman Babin. Thank you. I'd now like to call the 
gentleman from Florida, Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. Thank you to the 
panelists here today to share your expertise with all of us. 
Mr. Gerstenmaier, NASA has invested significant funds and 
effort in developing and certifying commercial crew systems. 
And as you know, this program will ultimately serve as a model 
for future public/private partnerships for space activities. 
What lessons have been learned from the Commercial Crew Program 
and can be applied to deep space exploration?
    Mr. Gerstenmaier. I think there's many, and I can go just 
through a few. I think first of all it's very important that 
you have the requirements set up front correctly with the 
partners. And we did that through a requirements development 
standpoint. We also allowed for alternate standards which I 
think is also very important. So we didn't force them to adhere 
just to our standards, our NASA specifications. We allowed them 
to provide back to us standards that we initially agreed to up 
front. And I think that helped to have a very stable 
understanding of the requirements in place.
    I think it's also important that we have the ability to add 
some additional testing if we see a need for it in the 
activities. Likewise, we have the ability for ourselves to do 
testing if it's needed. I think we also learned a lot from the 
commercial cargo program. We could take significantly higher 
risk with cargo than we can with the life and humans. That 
allowed us to gain experience to see what this operating model 
was like working with two providers. It got us a chance to see 
where we needed additional insight, and I think that helped us 
with this program.
    I think we're about ready to learn a whole bunch of new 
lessons as we go into this next phase as we start to close out 
and to do all the verifications, all the validation activities 
that were talked about, actually get the hardware through the 
final testing. I guarantee you we will learn through that and 
we will put some lessons in place. It's also very important for 
us to have the two providers as was discussed earlier. That 
gives us another degree of freedom that if we run into schedule 
problems with one provider or there's a major failure on their 
systems, we have another provider. So there's a sense of 
redundancy. I call it portfolio management by selecting 
multiple providers that allows us to ensure we get the 
capability we need at the end. But I think those are some of 
the major ones. And I can think some more about those off-line.
    Mr. Crist. Great. Thank you, sir. Could NASA leverage the 
vehicles developed under the Commercial Crew Program to support 
and accelerate its deep space exploration plans?
    Mr. Gerstenmaier. Again, we can go look at these vehicles' 
systems design, some of the rockets and other pieces, and see 
how they might fit in another activity. But as I described to 
you, regarding lessons learned, we can definitely apply some of 
those acquisition lessons learned, some of those program 
project management lessons learned for the new programs as we 
look to lunar activities in the future.
    Mr. Crist. Thank you. Would any other panelist like to 
comment on this?
    Mr. Mulholland. Yeah, I think it's incredibly important for 
the partnership and the acquisition approach to be tailored to 
the specific mission. For commercial crew, I think it was 
because of our experience in this environment over decades. I 
think it was the appropriate mechanism. For deep space 
activity, where there is a lot of research to be done and the 
requirements by definition can't be stable yet, the approach 
that they're using is necessarily different.
    From a specific vehicle use, our vehicle was specifically 
designed for the low-Earth orbit mission. We have not looked at 
what would be required to use it for a deep space mission. 
Obviously, it would need some modifications to support those 
different environments.
    Mr. Crist. Sure. And doctor?
    Dr. Koenigsmann. Regarding SpaceX, obviously we are laser-
focused on getting the job right now done and get to the space 
station by the end of the year. That's the highest priority at 
SpaceX. But if you look at this capsule, you'll see a lot of 
actually eight really powerful engines, and those might be 
useful in other applications, too.
    Mr. Crist. Great. My next question I'd like to direct to 
the two of you, Mr. Mulholland and Dr. Koenigsmann. A recent 
study done by a NASA cost analyst, Mr. Edgar Zapata, said that 
fixed-price space act agreements, as opposed to traditional 
cost plus-contracting, have reduced cost risks to NASA, the 
Federal Government, and therefore, the taxpayers at large. Can 
you discuss your experience with space act agreements and why 
you believe they are a good tool to encourage innovation and at 
the same time reduce cost?
    Mr. Mulholland. I believe space act agreements have a 
place, and they were certainly well-utilized in the early 
development phase of commercial crew. I think it was incredibly 
important for NASA to go to a far-base contract for the 
completion of this design and development phase. It is the only 
way that NASA can leverage contractual requirements on a 
contractor.
    So it is incredibly important for both the contractor and 
for NASA to be able to do that and to hold the contractor 
accountable and to allow us to have certainty in requirement 
stability.
    So I would not advocate using space act agreements for 
future development activities where you're fielding hardware. 
That said, for early phases, it's very good. Over all, I think 
the partnership between NASA and the contractors has been 
excellent and it has grown more rigorous as the fidelity of the 
program has matured. And I think that was successful.
    Dr. Koenigsmann. We have overall had a great experience on 
the Space Act Agreement under COTS, and I think the numbers 
quoted in this particular article which I really enjoyed, I 
think we saved--there was a factor of four to ten less I 
believe than under a traditional cost-plus contract. We believe 
in particular firm fixed is the way to go. It is milestone 
oriented and it gives the right incentives to the contractor or 
ask to keep us--I want to say keep us hungry and let us perform 
at our highest performance level that we have. And I think 
we've been very successful under this particular model.
    Mr. Crist. Great. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Babin. Yes, sir. Thank you. I'd like to call on 
the gentleman from Florida, Mr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman, and I thank 
the panelists for being here today. It's an exciting time to be 
in space but not just because of the excitement but because we 
see a growing presence of private industry in space. And I like 
it because they are not there for the glory but because it's 
good business.
    In Florida which Space Florida runs the space complex down 
there, it actually makes money. It runs in the black. So space 
is good business. And today I'm particularly interested in how 
these public/private relationships, commercial relationships, 
are working.
    So let me start if I can with Dr. Koenigsmann. You briefly 
noted in your written testimony that the NASA SpaceX/COTS 
partnership has the distinction of being this pay-for-
performance partnership between government and private 
business. Can you elaborate more on those innovative, fixed-
price, pay-for-performance contracts and how that leverages the 
private or public investment, and private investment?
    Dr. Koenigsmann. So for one reason, if in the unfortunate 
case that we do need a little bit longer, you know, if that 
happens, that does not increase the cost, for example because 
the payment is tied to a particular milestone, like a certain 
test or a flight or something you can actually, you know, put 
some value to it. So I believe it gives you more control from a 
taxpayer perspective where the money goes and how the money is 
split up over, even over a longer period and a rather complex 
project like Crew Dragon for example.
    Mr. Dunn. Actually, so Ms. Chaplain, in general, would you 
share your feeling about the fixed-price, pay-for-performance 
contracting and how that, from the government's point of view, 
GAO's point of view, how that's influenced the cost of the 
programs and the return on those?
    Ms. Chaplain. So they can be a really good approach to 
follow as long as you do have your requirements defined and 
you're not asking for the contractor to be inventing too much 
in the program. If they have to go into a situation where 
there's a lot of unknowns and nobody knows how long it's going 
to take to get it done or how complex it's going to be, it'd be 
very difficult for a contractor to sign up for a fixed-price 
arrangement. And that's where the government backs off and goes 
into a cost-plus environment.
    And the other issue is as long as--you know, NASA itself 
has to decide how much control does it want over the situation. 
How many requirements does it want to specify? How involved in 
the engineering does it want to be? How much control does it 
need? So when it feels like it needs more of that control, it's 
going to also put you back into a cost-plus situation. But in 
these instances where you can use fixed price, the requirements 
are known. They can be very good ways to save money.
    Mr. Dunn. Thank you. So Mr. Gerstenmaier, in the cost end 
of the training side, you now have three new, different manned 
capsules. And I presume your astronauts have to train on each 
of these. But going forward, how are you going to segment that 
training? Is it everybody trains on everything or 1/3 here, 1/3 
there or how does that work?
    Mr. Gerstenmaier. So we have four astronauts now dedicated 
to the Commercial Crew Program, and they do--they're in 
training for the program but they're also going through design 
reviews, requirements reviews, seeing hardware, et cetera. 
We'll eventually assign some of that cadre to the two test 
flights that are upcoming. And for the Orion program, we'll 
have the other astronaut corps doing that. We also have 
astronauts training for space station.
    So several years before flight, two to three years before 
flight we'll start designating crews to the individual vehicles 
that they're going to fly on, the individual systems that 
they're going to interact with and begin their specific 
training for those particular missions.
    But typically, the crew timeline for training is roughly 
about two years.
    Mr. Dunn. I see. So Mr. Mulholland, in the little time 
that's left to us, I wonder if you would also comment on the 
use of these private partnerships and commercial relationships 
and how well that's working from your point of view.
    Mr. Mulholland. It's working excellently. We have a great 
relationship with Space Florida. We were able to relocate our 
program down in Florida and use the extensive resources that we 
have right there at the space coast. So it's a great model 
going forward.
    Mr. Dunn. Thank you very much. Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir. Thank you. And now I'd like to 
call on the gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. And I wanted to ask a 
question specifically to Dr. Sanders. I wanted to know if she 
could elaborate on why the ASAP views safety culture as 
critical and why the ASAP remains concerned about the 
providers' safety cultures and the evidence that you would use 
to confirm its presence?
    Dr. Sanders. Safety culture, you know, you can put all the 
requirements you want to on a program relative to safety. You 
can say you've got to do this, this, this, and this, but if 
it's not something that the entity embraces itself and really 
believes, it's important themselves, then it doesn't really 
work well.
    And so it was important to us to see that the commercial 
providers had this culture embedded in them. There was early on 
some evidence that there might be a lack, a little bit of a 
lack in safety culture. We saw a few things that raised a flag 
for us. And so we wanted to see more insurance that that was 
there. It doesn't have to be--you know, we were trying to make 
the point at the time that it isn't that there's any one way 
that you necessarily make safety happen become a priority. It 
has to be something that people believe in. And so that was 
important to us.
    Mr. Veasey. Mr. Mulholland and Dr. Koenigsmann, can you 
talk about culture surrounding safety at your respective 
companies and how do you ensure that schedule concerns do not 
drive decisions that should compromise safety?
    Dr. Koenigsmann. Yeah, absolutely. Actually, thank you for 
the opportunity. And I want to point out, I totally agree with 
Dr. Sanders on this. If you don't have the corporate culture of 
safety, then all the requirements, they're good but, you know, 
they're still--you do need the safety culture as a basis to 
actually create a safe and reliable capsule and launch.
    That is actually my job at SpaceX. I'm the head of the 
flight reliability and build reliability departments. And my 
job is to make sure that we have a safety culture that 
translates into quality hardware and that translates into a 
safe launch.
    I use--my method obviously might be different from others, 
but I use a lot of talking directly to people and then in 
addition to the formal reviews, I go a lot of side ways into 
places and talk to the technicians. I look at the capsule. For 
example, I looked at the Crew Dragon capsules. There's three 
capsules right now that I saw in the factory, and I talked to 
engineers and technicians working on it to make sure that they 
have the right safety culture and understand the significance 
of flying astronauts. Yeah, absolutely.
    Mr. Mulholland. I certainly appreciate the question, 
Congressman. It's an area I've got a lot of passion around. Our 
company has essentially grown up with NASA through the human 
spaceflight program. We've been a trusted partner with NASA on 
every human spaceflight program that this country has 
performed. And we're very happy to be able to maintain that.
    So culture for us, our culture and our safety focus I think 
is very strong. It's something that we have across our entire 
company. You know, our business is to field and deliver 
transportation platforms. We do it for the commercial aviation 
sector. We do it for our servicemen and women, and we do it for 
human spaceflight.
    And the way you develop that culture is over time and it's 
with the decisions that you make. It's how you treat your 
employees, and it's how you deal with technical issues and 
having a robust focus on engineering discipline and the safety 
decisions that you make.
    You know, it is something that takes a long time to 
develop, and it's something that an organization has to be 
passionate about to maintain. And it's something that I think 
over decades this company in particular has demonstrated.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Babin. Yes, sir. Thank you. Now I'd like to call 
on the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. So as I understand it, 
the Mission Management Team historically was in charge of 
reviewing possible mission issues during and after flight. 
Members from different areas of NASA sat on the board. The MMT 
even had a vote in the go/no-go poll before a launch. So the 
MMT simply functioned as a safety watchdog.
    My first question is for Mr. Mulholland and Dr. 
Koenigsmann. What safety programs are currently in place to 
match the role previously played by MMT at Boeing and SpaceX? 
Mr. Mulholland?
    Mr. Mulholland. Excellent question. So growing up on the 
space shuttle program and seeing the foundation of the mission 
management team approach, our mission management plan is going 
to mirror that that we implemented on the space shuttle 
program. So we will have a mission management team. NASA will 
be part of that mission management team. We will have similar 
reviews heading up to and into launch, both from the flight 
readiness review and L minus two review before we commit to 
taking the vehicle. And they will be fully up. The mission 
management team will be up and running from that FRR on in 
consistent with how we upgraded the shuttle program.
    Mr. Banks. Okay.
    Dr. Koenigsmann. Yeah, a slightly different name. On our 
side we call it flight reliability. But nevertheless, I 
actually learned from the shuttle obviously, too, and why 
change something that worked? And so we created a similar 
approach where we review and test and verify as we go along.
    I do want to also, you know, maybe mention that Dragon--not 
Dragon, Falcon 9 is usually--we can static fire it on the 
launch pad. So that's a possibility, do a very last test on the 
last week before launch to make sure that this vehicle is ready 
to go. It's similar to running up the engines and make sure 
that the vehicle is ready to go.
    So, in addition to, you know, taking the traditional 
approach as we've added elements there that we think contribute 
to safety and to reliability.
    Mr. Banks. Okay. Thank you. As a follow-up to that to both 
of you, who would have the final say on whether or launch in a 
SpaceX or Boeing vehicle? And would NASA be able to call off 
the launch or would Boeing or SpaceX have complete authority to 
decide to launch?
    Mr. Mulholland. NASA has the final no-go for flying their 
crews.
    Dr. Koenigsmann. Yeah, I believe that's the case on our 
side, too.
    Mr. Gerstenmaier. NASA has the authority to override the 
contractor decision to do what's right for the crew.
    Mr. Banks. Okay. Thank you. I understand that SpaceX is 
planning on water landings while Boeing will be landing 
vehicles in the desert. What procedures does each company plan 
to put in place to ensure the safe retrieval of astronauts once 
they've landed? Mr. Mulholland?
    Mr. Mulholland. It is our responsibility, and there is a 
whole set of NASA requirements on what has to be fielded out of 
the retrieval site, which includes medical personnel, the 
ability to transport the astronauts to a local hospital within 
an hour. There is a whole set of requirements, and we've got 
the infrastructure in place or in work to support that.
    Mr. Banks. Okay.
    Dr. Koenigsmann. Yeah, and we obviously got the same 
requirements from the perspective, and we have a ship. We have 
the ability to land a helicopter. And we actually, on this 
particular--the way we get the capsule out of the water, that 
is something that we do currently on every Crew Dragon last 
time on Saturday morning or Sunday morning, I think, on the 
last flight. So it's a routine activity for us, obviously 
upgraded and with additional personnel to make sure the 
astronauts are safe.
    Mr. Banks. Okay. Does each company have a plan for 
emergency landings in areas other than the primary landing 
site?
    Mr. Mulholland. Our plan normally is to land on land 
because of the trajectory that we fly. If we end up in an abort 
situation, we will land in the water. We'll be certified for 
that also.
    In the situation of an abort, the NASA and the government 
forces will do the retrieval.
    Mr. Banks. Okay. Doctor?
    Dr. Koenigsmann. Yeah, we do rely also on government 
support in case of, you know, landing in the wrong place or the 
wrong spot obviously.
    Mr. Banks. Okay. I have a few seconds left. Mr. 
Gerstenmaier, as NASA continues to buy seats on Russian 
spacecraft to travel to the International Space Station, will 
this practice stop once the Commercial Crew Program is ready? 
Or will NASA continue to purchase seats on Russian aircraft?
    Mr. Gerstenmaier. We will not purchase seats on Russian 
Soyuz after this program becomes operational. We still will 
continue to fly our crew on the Russian Soyuz vehicle, and we 
will fly a Russian cosmonaut on our U.S. crew vehicles. And the 
purpose for that is to ensure that we always have space station 
manned with one Russian cosmonaut and one U.S. astronaut so 
they can operate the appropriate systems. The station requires 
operations of the Russian segment and the U.S. segment. So we 
need to have a mixed crew on board. If a contingency occurs, 
the crew gets in the vehicle they arrived on and they need to 
return to the earth. So to keep that mix on orbit where we have 
a Russian cosmonaut and a U.S. crew member, we need to share 
crews across our vehicles. So our plan is no longer to purchase 
seats but we will still have the ability, we will still fly a 
U.S. crew member on a Soyuz and the Russians will likewise fly 
one of their crew members on our U.S. crew vehicles.
    Mr. Banks. Thank you. My time is expired.
    Chairman Babin. Yes, sir. Thank you. I'd like to recognize 
the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And thank 
you all for being with us.
    Dr. Koenigsmann, can you give us an update on SpaceX's 
timetable for a manned spaceflight to Mars?
    Dr. Koenigsmann. I'm not--I don't think I'm qualified for 
that. I mean, obviously that is a long-term goal that our 
founder and CEO, Mr. Musk, has and there's a team working on 
this. But I want to say it's a relatively modest team, and the 
main focus on the company is clearly on this particular program 
and getting to the space station. That is our first step into 
manned space travel.
    Mr. Beyer. My colleague, Mr. Perlmutter from Colorado, has 
a seat on NASA's 2033 flight to Mars. But we're all----
    Mr. Perlmutter. I'll go on SpaceX's.
    Mr. Beyer. Yeah. If we can get rid of him earlier, that 
would be very helpful. And you know, one of our previous 
friends on the Republican side talked about how wonderful it 
was that we were now in our space industry could make money off 
it, rather than just doing it for the glory. Tell me, Mr. 
Koenigsmann, from a SpaceX perspective, cars aside, is there a 
viable business model? We know the satellite folks have done 
really well, the Orbital ATKs.
    Dr. Koenigsmann. Right.
    Mr. Beyer. But can you make money doing these crew missions 
also?
    Dr. Koenigsmann. So I want to say we actually brought the 
commercial space back to the U.S. We had 18 launches in the 
last year, and I want to say 60-something percent were--of the 
commercial market is now done by SpaceX. I hope I got my 
numbers right here. And that obviously is a commercial aspect, 
and that gives us an additional leg to stand on, 
notwithstanding that the crew program obviously gets some funds 
into SpaceX, too.
    But I'd want to point out that we are diversified and 
looking at commercial launches as much as government launches, 
too. There's additional benefit, of course, for Crew Dragon and 
the benefit is that we're using the same rocket over and over. 
There's no change here, and that makes us a very well-practiced 
team with a lot of experience and a lot of data. I personally 
have been building rockets for 15 years at SpaceX, and I must 
say, I learned a lot in particular in the last year just by 
pure repetitive launches.
    Mr. Beyer. That's a good lead-in because we talked a lot 
about the Soyuz rockets.
    Dr. Koenigsmann. Right, yes.
    Mr. Beyer. And I've toured your facility in California and 
seen the engines that you built.
    Dr. Koenigsmann. Yeah.
    Mr. Beyer. Can they replace Soyuz?
    Dr. Koenigsmann. Yes, I think so. I mean, the engines are--
we build almost everything basically in-house and the idea is 
to keep control of costs and schedule if you build it in-house. 
And it's end to end. It's the launch vehicle all the way up to 
Crew Dragon. There's no gap here.
    Mr. Beyer. Mr. Mulholland, is there an opportunity to work 
together with SpaceX on the part of Boeing, ULA, et cetera in 
terms of the engines?
    Mr. Mulholland. From a launch vehicle standpoint because we 
go out and we contract for that launch vehicle service. So we 
competitively competed for our launch vehicle for the initial 
phases of commercial crew. For us, Atlas V was the only launch 
vehicle that had the mission assurance, reliability, and safety 
record necessary to flight crew. Obviously, if we look at long-
term lifecycle affordability, we will continue to look at 
different launch vehicles in this class, and when one exhibits 
the safety record and reliability performance that we think is 
necessary for crew, we'll certainly consider that.
    Mr. Beyer. Great. Thank you. Mr. Gerstenmaier, in Congress 
we're struggling with how to react to the Russian interference 
in the 2016 election, and we're increasingly realizing that 
they've interfered in elections all over the world, all over 
Europe. Have you seen any Russian disinformation interference 
in the space culture?
    Mr. Gerstenmaier. We've seen no evidence of problems in the 
space culture. I think as we've described in this hearing, we 
talked about a safety culture that was required that needs to 
be in place to ensure safe flight. We have a very strong 
relationship with our Russian partners. We share the same 
strong desire for protecting human life. We work together 
fairly seamlessly together to work technical problems and 
issues. We share data back and forth very openly. We recognize 
the challenges of putting humans in space, both the Russians 
and the U.S. And so far, the space industry has not been 
subject to other activities that could be seen as bad. The 
focus of protecting human life drives us to a higher calling to 
be more open and transparent than may be normally required.
    Mr. Beyer. Great. Thank you very much. Mr. Chair, I yield 
back.
    Chairman Babin. Yes, sir. Thank you. Now I'd like to 
recognize the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman, and thank 
you, panel for your appearance today.
    Mr. Gerstenmaier, on what date does our contract with the 
Russians to transport our astronauts back and forth to the 
International Space Station, what is the date of the end of our 
contract with them?
    Mr. Gerstenmaier. The last launches are in the spring of 
2019 with their crew returns in the fall of 2019. So by 
probably October, November of 2019, we need to have some 
established way for commercial--the U.S. providers to be 
delivering crews.
    Mr. Posey. Okay. How many missions do we have between now 
and then?
    Mr. Gerstenmaier. How man Soyuz missions we have between 
now and then? We have roughly--we do two Soyuz missions in the 
spring and two Soyuz missions in the fall. So we fly 
essentially three crew members in the spring and three crew 
members in the fall.
    Mr. Posey. Okay. How many do we have scheduled after that?
    Mr. Gerstenmaier. After the 2019 date with Soyuz? We have 
none.
    Mr. Posey. None? Nothing scheduled for the ISS?
    Mr. Gerstenmaier. We only have what I described before 
where we will fly one of our astronauts on the Soyuz vehicle 
for safety considerations and we will fly one Russian on our 
U.S. crew providers. But beyond that September 2019 date, we 
have no further ability to use the Soyuz directly for our 
purposes.
    Mr. Posey. But what is the need for missions to the space 
station? How many more missions do you think we'll need to have 
to the space station?
    Mr. Gerstenmaier. Again, we'll need from then through the 
end, probably 12 missions or so. Again, two per year, same 
kind----
    Mr. Posey. Two per year for the next----
    Mr. Gerstenmaier. Until the end of station is no earlier 
than 2024. So that would be 2019 through 2024.
    Mr. Posey. Okay.
    Mr. Gerstenmaier. So five years at two per year.
    Mr. Posey. Okay. Mr. Mulholland, when do you think you're 
going to be flight-ready?
    Mr. Mulholland. We have high confidence in our plan we'll 
fly our uncrewed flight in August of this year and our crewed 
flight in November of this year.
    Mr. Posey. So you think you'll be on line by spring of 
2019?
    Mr. Mulholland. Yes, sir.
    Mr. Posey. Okay. Mr. Koenigsmann, how about you?
    Dr. Koenigsmann. It's about the same. We have an uncrewed 
flight in August of this year and then we have a crew flight 
plan for December this year.
    Mr. Posey. Okay. Just out of curiosity, Mr. Gerstenmaier, 
what are we paying the Russians per seat now?
    Mr. Gerstenmaier. It's on the order of $70 to $80 million 
per seat.
    Mr. Posey. Okay. Are they going to pay us when we carry 
their people up there?
    Mr. Gerstenmaier. No, and we're not going to pay them for 
them carrying our astronaut to station.
    Mr. Posey. But they won't be carrying our astronauts after 
2019, will they?
    Mr. Gerstenmaier. Yes, they will, for the safety reasons I 
described earlier. We will continue to have one U.S. crew 
member on every Soyuz flight that flies to station, and we will 
continue to have one Russian on one of our U.S. flights. And 
that's to keep station viable with the Russian cosmonaut and a 
U.S. astronaut aboard station.
    Mr. Posey. And of course----
    Mr. Gerstenmaier. And that will be done under no exchange 
of funds basis.
    Mr. Posey. All right. So we'll carry ours and at least one 
of theirs and they'll carry theirs and at least one of ours?
    Mr. Gerstenmaier. That's correct.
    Mr. Posey. Okay. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you. Now I'd like to 
recognize the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. All right. Thanks, Mr. Chairman. And Mr. 
Gerstenmaier, let me start with you. In November we talked a 
little bit about the Dream Chaser, and they were actually 
having a test flight and drop back in November when we last 
visited. And can you remind me what it is that NASA has planned 
for the Dream Chaser? It's primarily cargo. Anything else?
    Mr. Gerstenmaier. It is for cargo and it's both pressurized 
and unpressurized cargo to the station.
    Mr. Perlmutter. Is it possible--I guess anything's possible 
but is it possible it would be a back-up to SpaceX and Boeing?
    Mr. Gerstenmaier. Not at this time because our requirements 
for safety are dramatically different between the cargo program 
and the crew program. For the crew program we have a much more 
stringent requirements in capability. We have a requirement for 
an abort capability in the vehicles, and currently as Dream 
Chaser is envisioned for the cargo missions, it doesn't meet 
fully all those requirements and also it doesn't have an abort 
capability as it's currently envisioned for cargo.
    Mr. Perlmutter. But if either of the contractors were to 
slip up, those kinds of things could be changed I imagine?
    Mr. Gerstenmaier. Through appropriate procurement and 
competitive procurement activities, yes.
    Mr. Perlmutter. Okay. Can the panel talk to me about load 
and go and what that means to all of you and what you expect 
because--and I'd start with you, Dr. Koenigsmann, if you would. 
There's some concerns that have been expressed that when you're 
fueling the rockets in the spaceship or whatever that, you 
know, there's a little additional danger at that point. I mean, 
I'll just open it wide open and start with you, sir.
    Dr. Koenigsmann. Certainly. I mean, we use what we call 
densified fuel. It's subcooled actually way below the boiling 
point, and it's particularly adequate to load it actually fast 
and quick. And what we tried to do here is we tried to minimize 
the time the exposed personnel, not just astronauts, but also 
crew to the hazard of fueling. So in this particular case, our 
procedure is actually that we put the astronauts--we strap them 
in. We make sure they're comfortable, and then the ground crew 
retreats. And we arm the pad abort system that we already 
tested. And then we start fueling the main propellants 
basically within the--what amounts to like 1/2 hour, something 
like that. So it's a relatively quick procedure, and we believe 
that this exposure time is the shortest possible and therefore 
the safest approach.
    I do want to point out that when you load traditional 
propellants you basically load them, LOX at least, at their 
boiling point. So you're constantly refilling while the gas 
basically goes overboard. It's not--it's described--some people 
say it is quiescence but it's actually a constantly boiling 
process that needs to be refilled from the other side. So we 
don't consider that as a really quiescence stage, either.
    Mr. Perlmutter. So from SpaceX's point of view, the purpose 
is----
    Dr. Koenigsmann. Right.
    Mr. Perlmutter. --safety?
    Dr. Koenigsmann. Correct.
    Mr. Perlmutter. I mean, so you think it's safer to do that. 
Does anybody else have a comment on load and go? Mr. 
Mulholland?
    Mr. Mulholland. Load and go is an approach that the Atlas V 
doesn't take, you know, and I think that the Aerospace Advisory 
Panel, NASA appropriately has significant concerns over that 
approach. You know, it's something--and obviously I don't know 
the specifics of the SpaceX system, but using densified 
propellant was something that we considered years ago in the 
space shuttle program when we were looking for additional 
performance capability. But we never could get comfortable with 
the safety risks that you would take with that approach.
    When you're loading the densified propellant, it is not an 
inherently stable situation. With the approach that the shuttle 
took, the approach that the Atlas V takes, you do load the 
propellant and then you enter into a period called stable 
replenish because that system then is thermodynamically stable. 
So you are flowing a small amount of propellant in just to 
maintain that thermodynamic stability.
    So you know, I have great trust in ASAP and NASA and 
working with SpaceX to determine that, whether that is 
technically and from a safety standpoint feasible.
    Mr. Perlmutter. Quickly, Mr. Gerstenmaier? Dr. Sanders? 
Just quickly.
    Mr. Gerstenmaier. Yeah. What we'd like to do is not have 
kind of a word discussion about where this is, but we're going 
to actually take the vehicle design, we're going to go look at 
the specific hazards associated with the various phases during 
loading. We'll look at when the crew goes on board. We'll look 
at what those hazards are, what the likelihood of those hazards 
are, and we'll make an informed decision about when for this 
particular rocket's design is the safest time to put the crew 
on orbit.
    So rather than picking words such as load and go or stable 
replenish, we're not going to do that. We're going to go below 
that. We're going to understand the specific risk and 
understand the specific timeframes that the crews are exposed 
to hazards, and then we'll make an informed decision about the 
appropriate time to go ahead and put the crew on orbit.
    It's also important that if we stay with the same approach 
that SpaceX is using for their cargo flights, we gain a lot of 
experience of understanding how this rocket gets loaded, how 
the ground systems operate, the loading systems on the ground, 
how reliable they are, how safe they are, et cetera. That's an 
important consideration as well. It's not only the rocket that 
can damage and hurt the crew. Also the ground system can have 
problems and failures that can also hurt the crew. We need to 
look at it in an integrated system. We have the plans in place 
to methodically review this, look at the hazards, and find the 
appropriate time to put the crew on board the vehicles. And 
we'll do that at the appropriate time.
    Chairman Babin. Thank you, Mr. Perlmutter. I appreciate it. 
Your time's expired. And I just want to thank the witnesses for 
your valuable testimony and the Members for all of your 
questions. The record will remain open for two weeks for 
additional comments and written questions from Members. And I'm 
not going to be able to shake your hands because I've got to 
run to another event, but I want to say thank you so very much. 
This has been very, very informative. Two great companies, and 
we appreciate all this information. Thank you. This is 
adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
